No. ________________

In the Supreme Court of the United States

HECTOR MIGUEL MARTINEZ-CARRILLO, PETITIONER,
V.

UNITED STATES OF AMERICA, RESPONDENT
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
CERTIFICATE OF SERVICE
The undersigned, an attorney, a member of the Bar of this Court, certifies
that pursuant to Rule 29.3, Supreme Court Rules, she served the within Motion for Leave to Proceed In Forma Pauperis and Petition for Writ of Certiorari
on Counsel for the United States, and for other parties required to be served,
by enclosing a copy of each in an envelope and delivering it to FedEx, a thirdparty commercial carrier, on February 8, 2021, for delivery within three calendar days to their post office addresses
The Honorable Elizabeth Prelogar
Acting Solicitor General of the United States
U.S. Department of Justice
10th Street & Constitution Avenue NW, Room 5614
Washington, D.C. 20530
(202) 514-2201

Counsel further certifies that all parties required to be served have been
served.

s/ Kristin L. Davidson
KRISTIN L. DAVIDSON
Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner

